TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Weaknesses in Business Resumption Plans
                   Could Delay Recovery From a Disaster



                                      September 17, 2008

                              Reference Number: 2008-20-178




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 17, 2008


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Weaknesses in Business Resumption Plans Could
                             Delay Recovery From a Disaster (Audit # 200820013)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) business resumption plans are adequate to restore critical business processes after a
 disaster or an emergency event. We reviewed the plans prepared by business functions that
 perform the IRS’ critical processes at sites where the largest number of employees work. This
 review was included in the Treasury Inspector General for Tax Administration Fiscal Year 2008
 Annual Audit Plan and was part of the Information Systems Programs business unit’s statutory
 requirements to annually review the adequacy and security of IRS technology.

 Impact on the Taxpayer
 Business resumption plans are designed to help the IRS recover, restore, and resume normal
 business operations after a disaster or an emergency. However, the IRS business resumption
 plans we reviewed were not adequately completed and would not facilitate the efficient recovery
 of critical business processes. An extended disruption to IRS facilities could affect key
 processes such as collecting taxes, processing tax returns and refunds, and responding to
 taxpayer inquiries. Processing delays could ultimately have a negative impact on the nation’s
 economy and future taxpayer compliance.

 Synopsis
 The IRS’ ability to recover its critical processes is strengthened by its extensive redundant
 operations and its experience in recovering from previous disasters and emergency incidents.
 However, most of the sample of 65 business resumption plans prepared by IRS business
 functions that we reviewed lacked detailed planning and recovery strategies that would facilitate
               Weaknesses in Business Resumption Plans Could Delay Recovery
                                      From a Disaster



an efficient recovery of the IRS business processes. For example, several plans did not
1) identify an alternate facility and the amount of space, furniture, and equipment needed at the
alternate facility, 2) identify information technology systems and applications that are required to
recover critical business processes, and 3) document employees’ emergency contact information
and the vital records needed by employees to perform their duties.
Some business resumption team leaders were cognizant of the details and strategies they would
follow after a disaster, but they did not document this information in their business resumption
plans. Documentation of the recovery procedures and strategies in the business resumption plans
would facilitate recovery and could be crucial if key employees are unavailable after a disaster.
The lack of detail in business resumption plans is generally due to control weaknesses and
insufficient oversight. Some business functions did not establish a review process or a central
repository to ensure the quality and control of the plans. The Physical Security and Emergency
Preparedness office created two templates to guide business functions on how to prepare the
plans. However, the business functions often used different templates because use of the
templates was not mandatory. In addition, the Emergency Management and Preparedness
Executive Steering Committee, which is responsible for overseeing the business resumption
plans, has met only once since being established in July 2004.
Comprehensive testing is also crucial to the viability of business resumption plans. The plans are
required to be tested and updated each year. However, the business units had not tested
35 (54 percent) of the 65 plans in Calendar Year 2007. When plans were tested, the scopes were
insufficient to identify gaps, omissions, and weaknesses in the plans. In addition, 25 (38 percent)
of the 65 plans we evaluated had not been updated in Calendar Year 2007. We attributed these
conditions to a lack of emphasis by management.

Recommendations
To ensure the viability of business resumption plans, the Chief, Agency-Wide Shared Services,
should 1) instruct business units with a significant number of sites to establish a business
resumption coordinator position to a) perform a quality review of each business resumption plan
within the function and b) create and maintain a central repository to control the plans,
2) mandate use of the Physical Security and Emergency Preparedness office templates and
require all business resumption coordinators to periodically brief the Emergency Management
and Preparedness Executive Steering Committee on the completeness and adequacy of the
business resumption plans, 3) develop specific testing requirements and procedures for business
resumption plans based on risk, and 4) instruct the Emergency Management and Preparedness
Executive Steering Committee to require business units to plan and conduct testing, document
test results, and update business resumption plans annually, as well as monitor testing activities
conducted by the business units.


                                                                                                   2
               Weaknesses in Business Resumption Plans Could Delay Recovery
                                      From a Disaster




Response
The IRS agreed with our recommendations. The Chief, Agency-Wide Shared Services will
1) coordinate the establishment of full-time business coordinator positions, as appropriate, to
enhance the business unit continuity program, and 2) direct the use of standardized continuity
templates that will be developed by the Physical Security and Emergency Preparedness office.
The Emergency Management and Preparedness Executive Steering Committee will receive
periodic briefings from select business coordinators. Lastly, the IRS will develop criteria for a
multi-year testing, training, and exercise strategy. This strategy will be consistent with Federal
Government continuity directives. Management’s complete response to the draft report is
included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                     3
                    Weaknesses in Business Resumption Plans Could Delay Recovery
                                           From a Disaster




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Ability to Recover Critical Processes Is Strengthened by
          Redundant Operations and Experience With Major Disasters .....................Page 3
          Resumption of Processes Could Be Delayed Due to Inadequate
          Planning ........................................................................................................Page 4
                    Recommendations 1 and 2: ................................................Page 7

          Business Resumption Plans Need Comprehensive Testing..........................Page 7
                    Recommendations 3 and 4: ................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Business Resumption Plans Evaluated ................................Page 14
          Appendix V – Management’s Response to the Draft Report .......................Page 17
       Weaknesses in Business Resumption Plans Could Delay Recovery
                              From a Disaster




                       Abbreviations

IRS              Internal Revenue Service
PSEP             Physical Security and Emergency Preparedness
                 Weaknesses in Business Resumption Plans Could Delay Recovery
                                        From a Disaster




                                            Background

Homeland Security Presidential Directive-201 requires that Federal Government agencies
develop business continuity plans to enable the recovery of critical functions after a disaster or
emergency. To comply with the Directive, the Internal Revenue Service (IRS) must develop and
continually update its business continuity plans to enable the efficient recovery of its critical
processes. This goal is difficult due to the wide range of incidents that could disrupt IRS
operations such as natural disasters, accidents, power outages, and terrorist attacks.
An extended disruption to IRS facilities could affect key processes such as collecting taxes,
processing tax returns and refunds, and responding to taxpayer inquiries. In Fiscal Year 2007,
the IRS processed more than 235 million tax returns and collected almost $2.7 trillion. The IRS
also issued about 117 million refunds totaling $295 billion. Processing delays could ultimately
have a negative impact on the nation’s economy and future taxpayer compliance.
To recover critical processes after an incident, the IRS uses one or more of the following
integrated Plans:
    •   Incident Management Plan – The overall coordinated actions management must take to
        ensure recovery and restoration of critical business processes.
    •   Occupant Emergency Plan – A set of response procedures and actions taken during the
        onset of an emergency to minimize the effect of the incident. It includes building
        evacuation, shelter-in-place, and employee safety procedures.
    •   Business Resumption Plan – A guide to prioritized reestablishment of business processes
        after an incident. It includes the advance planning and preparations necessary to
        minimize loss and ensure continuity of the critical business processes.
    •   Disaster Recovery Plan – A guide to recovery of the information technology
        infrastructure, network, hardware, systems, applications, and operating systems.
The relationship among the four Plans is represented in Figure 1.




1
 National Continuity Policy, dated May 4, 2007 (also known as National Security Presidential Directive–51). This
Directive establishes a comprehensive national policy on the continuity of Federal Government structures and
operations and a single National Continuity Coordinator responsible for coordinating the development and
implementation of Federal Government continuity policies.
                                                                                                         Page 1
                 Weaknesses in Business Resumption Plans Could Delay Recovery
                                        From a Disaster



                 Figure 1: Relationship of IRS Business Continuity Plans




    Source: Agency-Wide Shared Services. IT = Information Technology. BCP = Business Continuity Program.
    OEP = Occupant Emergency Plan. IMP = Incident Management Plan. BRP = Business Resumption Plan.
    DRP = Disaster Recovery Plan.

We previously reported the results of our review of IRS disaster recovery plans2 and are
currently performing a separate review of IRS incident management plans and occupant
emergency plans. We plan to consolidate results of those reviews with our results in this report
that focus on business resumption plans and present them in a subsequent report on the overall
IRS business continuity program.
This review was performed in the Office of Agency-Wide Shared Services at the IRS
Headquarters in Washington, D.C., and New Carrollton, Maryland; the IRS campuses3 in
Atlanta, Georgia; Austin, Texas; Fresno, California; and Memphis, Tennessee; and the IRS field
office in Dallas, Texas, during the period November 2007 through April 2008. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.


2
  Disaster Recovery Issues Have Not Been Effectively Resolved, but Progress Is Being Made (Reference
Number 2008-20-061, dated February 29, 2008).
3
  Campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors,
and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                           Page 2
               Weaknesses in Business Resumption Plans Could Delay Recovery
                                      From a Disaster




                                 Results of Review

The Ability to Recover Critical Processes Is Strengthened by
Redundant Operations and Experience With Major Disasters
The IRS’ ability to recover its critical processes is strengthened by its extensive redundant
operations located throughout the nation. Each critical process is carried out at multiple
locations, allowing the IRS to take advantage of its experienced workforce and similarly situated
facilities to recover from an emergency. Even without adequate business resumption plans, we
believe that the IRS could redirect work to other locations by making ad hoc decisions.
However, this ability does not diminish the need for business resumption plans. Upfront
planning is necessary to expedite recovery, particularly considering the criticality of some IRS
processes.
The IRS can also benefit from its experience in recovering from previous disasters and
emergency incidents. For example:
    •   On June 25, 2006, the IRS National Headquarters building flooded during record rainfall
        and sustained extensive damage to its infrastructure. IRS officials reported activating
        several of the agency’s emergency operations plans. A review by the Government
        Accountability Office showed that while the IRS plans helped guide its response to the
        flood, in more severe emergency events, conditions could be less favorable to recovery.4
    •   Hurricane Katrina made landfall on August 29, 2005. It caused unprecedented damage to
        New Orleans, Louisiana, as well as the coastal areas of Mississippi and Alabama.
        Hurricane Rita followed less than 1 month later and further damaged New Orleans and
        the Gulf Coast area of Texas. The IRS had 25 offices affected by the Hurricanes, many
        of which were closed for short durations due to sustained power outages. Five offices
        received significant damage, which forced closure for longer periods of time. By taking
        aggressive actions after the storms, the IRS was able to relocate its employees and restore
        operations.
    •   In 2001 and 2002, a number of government offices received mail or packages that
        contained or seemed to contain the anthrax virus. While no IRS facility received any
        mail that actually contained anthrax, mail-handling procedures were upgraded to address
        the possibility. For example, mailrooms in all facilities were isolated, self-contained

4
 IRS EMERGENCY PLANNING: Headquarters Plans Supported Response to 2006 Flooding, but Additional
Guidance Could Improve All Hazard Preparedness (GAO-07-579, dated April 2007).
                                                                                              Page 3
               Weaknesses in Business Resumption Plans Could Delay Recovery
                                      From a Disaster



       ventilation systems were installed at all campus mailrooms so that the rooms could be
       shut off from the remainder of the facilities, and hazardous material training and
       protective equipment were provided to pertinent employees.

Resumption of Processes Could Be Delayed Due to Inadequate
Planning
The IRS Physical Security and Emergency Preparedness (PSEP) office provides detailed
guidance to business functions on how to prepare a business resumption plan. The guidance
includes templates for preparing a comprehensive or a simplified plan. Large sites with a
significant number of employees should use the comprehensive template, and smaller sites with
few employees should use the simplified template to prepare their business resumption plans.
The PSEP office also provides a Quick Review Checklist with detailed guidance that is
commensurate with the requirements in Homeland Security Presidential Directive-20 and the
IRS’ internal procedures.
A complete business resumption plan should include details such as:
   •   A list and description of critical business processes that are conducted by the business
       function at the site.
   •   Procedures for recovering each of the critical processes and sub-processes described in
       the business resumption plan.
   •   Other locations that perform the same business processes as those performed at the site
       covered by the plan.
   •   The vital records needed by the employees to perform their duties.
   •   The amount of space, furniture, and equipment (e.g., copiers, printers, fax machines) that
       will be required.
Each IRS business function at each site is responsible for developing its own business
resumption plan. Each plan has a point of contact or business resumption team leader
responsible for developing and maintaining the plan. The business resumption team leader or
point of contact for each function at each site should ensure that the key details emphasized by
the PSEP office are developed and maintained in the function’s business resumption plan.
However, most of the plans we evaluated lacked detailed planning and recovery strategies that
would facilitate an efficient recovery of the IRS business processes. Our review of a sample of
65 business resumption plans determined that they did not:
   •   Include procedures for recovering each of the critical processes and sub-processes
       described in the business resumption plans – 16 plans (25 percent).


                                                                                            Page 4
               Weaknesses in Business Resumption Plans Could Delay Recovery
                                      From a Disaster



   •   Identify an alternate facility that could be used for recovering critical processes –
       40 plans (62 percent). In some instances, an alternate site was not feasible or was
       deemed cost-prohibitive. In these instances, the critical processes would be rerouted to
       another IRS work site. However, the plans did not document this recovery strategy.
   •   Document the amount of space, furniture, and equipment (e.g., copiers, printers, and fax
       machines) that would be required at the alternate facility – 25 plans (38 percent).
   •   Document other locations that perform the same critical business processes and
       sub-processes as those performed at the site covered by the plan – 43 plans (66 percent).
   •   Identify information technology systems and applications that are required to recover
       critical business processes – 10 plans (15 percent).
   •   Identify the vital records needed by the employees to perform their duties –
       13 plans (20 percent). Some business resumption team leaders informed us that they had
       no vital records. Others stated that their vital records were electronic and accessible
       through the IRS network. However, the business resumption plans did not document
       these key details and recovery strategies.
   •   Include basic contact information such as a list of internal business contacts and
       emergency contact information – 20 plans (31 percent).
   •   Include a list of the employees and their emergency contact information –
       21 plans (32 percent). IRS officials informed us that they have previously used an
       automated system available to all IRS managers to contact employees because this
       system is more current and easier to maintain than a contact list in a business resumption
       plan. However, this recovery strategy is not documented in the business resumption
       plans.
To determine whether planning information was documented elsewhere, we followed up on
15 of the 65 business resumption plans in 6 locations by interviewing the business resumption
team leaders and reviewing other available documentation. The indepth reviews confirmed the
results of our initial evaluation because we were able to locate sufficient business resumption
information in other documentation for only 2 of the 15 plans.
Based on our interviews, we are confident that some business resumption team leaders knew the
necessary details and recovery strategies. However, when details and strategies are not
documented, resumption of critical processes could be delayed, particularly if the team leaders
are unavailable after an emergency.
The lack of detail in business resumption plans is generally due to control weaknesses and
insufficient oversight. The business resumption plans lack details for several specific reasons.



                                                                                            Page 5
                 Weaknesses in Business Resumption Plans Could Delay Recovery
                                        From a Disaster



    •   The Wage and Investment Division, Large and Mid-Size Business Division, Small
        Business/Self-Employed Division, Tax Exempt and Government Entities Division, and
        Taxpayer Advocate Service5 did not establish controls adequate to ensure the
        completeness of each business resumption plan. The Wage and Investment Division
        implemented a certification process for business resumption plans at the IRS campuses.
        However, the certification process is not a thorough quality review of the contents and
        viability of the plans. It does not provide adequate assurance that the plans would enable
        the business function to efficiently recover the critical processes.
        The Criminal Investigation Division, Chief Financial Officer organization, and Office of
        Chief Counsel have implemented adequate controls. These organizations established an
        independent quality review process for their business resumption plans. The plans were
        more complete and included more of the key details and required information. These
        functions are also smaller and have fewer employees, sites, and business resumption
        plans.
    •   Inconsistent use of business resumption templates by business functions contributed to
        preparation of incomplete and inadequate plans. The PSEP office does not mandate use
        of its two business resumption plan templates. Twelve different templates were used by
        the 8 IRS business functions that prepared the 65 business resumption plans we
        evaluated. Some functions used different templates within their own organizations.
        Inconsistent use of developed templates increases the risk that plans will be incomplete.
    •   In July 2004, the IRS established the Emergency Management and Preparedness
        Executive Steering Committee to help develop agency-wide policies, standards, and
        guidelines for continuity planning. However, this Committee has met only once since
        December 2007 and has not taken actions sufficient to ensure that business functions
        adhere to business resumption guidelines.
    •   Four of the eight business functions have not established a central repository to control
        their business resumption plans. A central repository is necessary to account for all of the
        plans that should be completed at sites where the business function has operations and to
        monitor the business resumption program. A central repository would facilitate the
        review of the plans, help manage updates to the plans, and ensure ready access to the
        most current plan in the event of a disaster or an emergency event.




5
  The Taxpayer Advocate Service is an independent organization within the IRS created by Congress to help
taxpayers resolve problems with the IRS and recommend changes to prevent the problems.
                                                                                                            Page 6
                  Weaknesses in Business Resumption Plans Could Delay Recovery
                                         From a Disaster



Recommendations
The Chief, Agency-Wide Shared Services, should:
Recommendation 1: Instruct business units with a significant number of sites to establish a
business resumption coordinator position to 1) perform a quality review of each business
resumption plan prepared by the business resumption team leader at a site within the function,
and 2) create and maintain a central repository in each business unit to account for and control
the business resumption plans.
         Management’s Response: The IRS agreed with this recommendation. The Chief,
         Agency-Wide Shared Services, will coordinate the establishment of full-time business
         coordinator positions, as appropriate, to enhance the business unit continuity program.
Recommendation 2: Require all business functions to use the PSEP office business
resumption plan templates and require all functions’ business resumption coordinators to
periodically brief the Emergency Management and Preparedness Executive Steering Committee
on the completeness and adequacy of the business resumption plans.
         Management’s Response: The IRS agreed with this recommendation. The Chief,
         Agency-Wide Shared Services, will direct the use of standardized continuity templates
         developed by the Physical Security and Emergency Preparedness office. In addition, the
         Emergency Management and Preparedness Executive Steering Committee will receive
         periodic briefings from select business coordinators.

Business Resumption Plans Need Comprehensive Testing
Testing business resumption plans is critical to ensuring the viability of the plans. Testing
validates the recovery strategies, assumptions, and procedures against likely disasters or
emergency events. The gaps and weaknesses in the plans should be identified and documented
during comprehensive testing, which allows management to update and strengthen the plans.
Homeland Security Presidential Directive-20 requires Federal Government agencies to conduct
annual tests of business resumption plans. To comply with this Directive and other Directives
from the Department of Homeland Security,6 the PSEP office provided testing guidance to the
IRS business functions. It advised IRS business functions that the best way to determine whether
business resumption plans are viable is to train those who have roles and responsibilities
identified in the plan and then conduct tests to determine whether the plans work. This guidance



6
 Homeland Security Presidential Directive-5, Management of Domestic Incidents; Homeland Security Presidential
Directive-7, Critical Infrastructure Identification, Prioritization, and Protection; and Homeland Security Presidential
Directive-8, National Preparedness.
                                                                                                               Page 7
                 Weaknesses in Business Resumption Plans Could Delay Recovery
                                        From a Disaster



is designed to determine whether team members know and understand their roles and
responsibilities and how they relate to those of others.
Generally, five types of tests can be conducted to assess business resumption plans:7
    •   Checklist test – This test involves reviewing the plan for content, completeness, and
        adherence to criteria.
    •   Tabletop test – The business resumption team meets and verbally describes what
        activities, procedures, and tasks it will follow.
    •   Parallel test – This test evaluates the recovery of processes at alternate sites without
        disrupting operations at the normal work site.
    •   Simulation test – This test is a combination of simulations and actual operations transfers
        and might require some units to cease operations for the test period.
    •   Full-interruption test – The organization activates all components of the business
        resumption plan.
The IRS does not conduct complete tests in a timely manner to ensure the viability of its business
resumption plans. The business units had not tested 35 (54 percent) of the 65 business
resumption plans during Calendar Year 2007. For the 30 plans that were tested, the scopes
consisted of tabletop exercises. Participants, such as a Senior Commissioner’s Representative,8 a
site coordinator, and a business resumption team leader, met and discussed how they would
handle various emergencies or disasters. This type of testing is insufficient to identify gaps,
omissions, and weaknesses in the plans. In addition, the results and weaknesses identified during
the tests were not documented. As discussed previously, the results of testing should be
documented and the business resumption plans should be updated. In our sample of 65 business
resumption plans, 25 (38 percent) had not been updated during Calendar Year 2007.
We attribute the insufficient testing to a lack of emphasis by IRS management. The IRS
procedures for business resumption do not address testing. The PSEP office web site does not
provide specific testing requirements. The PSEP office acknowledges that tabletop exercises are
the most common type of testing at the IRS, but it does not require or encourage more
comprehensive testing of the business resumption plans.
Lack of comprehensive testing results in weak plans that will not facilitate the efficient recovery
of the IRS’ critical business processes. The weaknesses in the plans will become evident after a
disaster or an emergency occurs.


7
  Akhtar Syed and Afsar Syed, Business Continuity Planning Methodology (Mississauga, Ontario, Canada: Sentryx,
2004), 203-213.
8
  The individual designated by the IRS Commissioner to serve as the point of contact on matters affecting more than
one IRS Division in a specified geographical area.
                                                                                                           Page 8
               Weaknesses in Business Resumption Plans Could Delay Recovery
                                      From a Disaster



Recommendations
The Chief, Agency-Wide Shared Services, should:
Recommendation 3: Develop specific testing requirements and procedures for business
resumption plans based on risk. Critical processes such as those we reviewed should be tested
using comprehensive testing techniques such as parallel, simulation, or full-interruption tests.
       Management’s Response: The IRS agreed with this recommendation. The Chief,
       Agency-Wide Shared Services, will develop criteria for a multi-year testing, training, and
       exercise strategy. This strategy will be consistent with Federal Government continuity
       directives.
Recommendation 4: Instruct the Emergency Management and Preparedness Executive
Steering Committee to 1) require business units to plan and conduct testing, document test
results, and update business resumption plans annually, and 2) monitor testing activities
conducted by the business units to ensure that the scopes of tests are sufficient to identify gaps
and weaknesses in the plans.
       Management’s Response: The IRS agreed with this recommendation. The Chief,
       Agency-Wide Shared Services, will develop a multi-year testing, training, and exercise
       strategy that is consistent with Federal Government continuity directives.




                                                                                              Page 9
              Weaknesses in Business Resumption Plans Could Delay Recovery
                                     From a Disaster



                                                                                Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS business resumption plans
are adequate to restore critical business processes after a disaster or an emergency event. To
accomplish this objective, we:
I.     Determined whether the IRS had prepared business resumption plans that addressed all
       critical processes.
       A. For the 2,643 business resumption plans required by the IRS, determined the number
          of plans that had not been completed.
       B. For those plans that had not been completed, determined the cause and whether the
          plans should have addressed any of the critical processes.
II.    Determined whether business resumption plans were prepared in accordance with Federal
       Emergency Management Agency, Department of the Treasury, and IRS guidelines.
       A. Identified prior (IRS, Treasury Inspector General for Tax Administration, and
          Government Accountability Office) business resumption plan recommendations and
          determined the status of their implementation.
       B. Reviewed the templates developed by the IRS for preparation of a business
          resumption plan to determine whether they were complete, adhered to guidance and
          criteria, and addressed each of the IRS’ 18 critical business processes.
       C. Selected a sample of locations carrying out critical business processes and reviewed
          their business resumption plans to determine whether a plan existed, was current, and
          was complete. To select the plans, we identified the IRS’ critical processes, the
          business units that perform these processes, and the buildings in which the highest
          number of employees who perform these critical processes are located. We selected
          70 business resumption plans (from a population of 2,643 plans) for locations where
          critical processes are performed by the largest number of employees. We used
          judgmental sampling because a random sample would have yielded some sites where
          few employees work. We selected only sites where a disaster would affect the most
          number of employees and cause the biggest disruption. Because some plans covered
          more than 1 location, we received and reviewed 65 plans (see Appendix IV for details
          about the plans selected).
           1. Determined whether a committee or working group was established to prepare the
              plan and, if so, determined the members of the committee.

                                                                                       Page 10
              Weaknesses in Business Resumption Plans Could Delay Recovery
                                     From a Disaster



          2. Determined whether the plans contained the following elements:
              •   List of critical personnel.
              •   Identification of vital records and backup location.
              •   Critical equipment needs.
              •   Names and telephone numbers for purposes of recovery/replacement/repair of
                  equipment, records, etc.
              •   Emergency telephone numbers.
              •   Security requirements.
              •   Communication needs.
III.   Determined whether the IRS conducted timely and complete tests to ensure the viability
       of business resumption plans in the event of an incident.
       A. Determined whether the IRS had implemented adequate policies and procedures to
          ensure that plans are tested and maintained.
          1. Identified the methodology used by IRS management to monitor the status of
             business resumption plan training and testing nationwide.
          2. For the 65 sampled business resumption plans, determined whether they had been
             properly tested. For any plan that had not been tested, we determined the cause.
          3. Evaluated the methods used to assess the test results to ensure timely
             implementation of plan modifications as necessary.
       B. Reviewed the results of tests on sampled business resumption plans to determine
          whether weaknesses identified during testing were corrected in a timely manner.
          1. Identified who was responsible for taking corrective actions on weaknesses
             identified during testing of the business resumption plans.
          2. Reviewed the results of documented training, testing, and exercises and
             determined whether the actions to correct the weaknesses were completed in a
             timely manner.
IV.    Evaluated the National Headquarters office methodology for monitoring the business
       resumption plan program.
       A. Determined where and how business resumption plans were maintained.
       B. Determined whether business resumption plans were reviewed for quality
          independently of the preparer.
       C. Determined whether a “change control process” was used to update and revise plans.



                                                                                       Page 11
              Weaknesses in Business Resumption Plans Could Delay Recovery
                                     From a Disaster



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Preston Benoit, Acting Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
William Allen Gray, Audit Manager
David Brown, Senior Auditor
George Franklin, Senior Auditor
Michelle Griffin, Senior Auditor




                                                                                      Page 12
             Weaknesses in Business Resumption Plans Could Delay Recovery
                                    From a Disaster



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Counsel CC
National Taxpayer Advocate TA
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Criminal Investigation SE:CI
Chief Financial Officer OS:CFO
Chief Information Officer OS:CIO
Director, Agency-Wide Shared Services, Employee Support Services OS:A:ESS
Director, Agency-Wide Shared Services, Physical Security and Emergency Preparedness
OS:A:PSEP
Director, Program Oversight OS:CIO:SM:PO
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Chief Information Officer OS:CIO




                                                                                      Page 13
                 Weaknesses in Business Resumption Plans Could Delay Recovery
                                        From a Disaster



                                                                                              Appendix IV

                Business Resumption Plans Evaluated

We reviewed 65 business resumption plans from 8 IRS business operating divisions that perform
the highest number of critical processes. We also selected plans at sites where the highest
number of employees would be affected by a disaster or an emergency event. Figure 1 identifies
the number of plans we evaluated from each of the eight business operating divisions. Figure 2
identifies the specific office locations for the plans reviewed.
                       Figure 1: Business Resumption Plans Reviewed
                               (by Business Operating Division)
                    Chief Financial Officer                                               2
                    Criminal Investigation Division                                       5
                    Large and Mid-Size Business Division                                 11
                    Office of Chief Counsel                                               4
                    Small Business/Self-Employed Division                                13
                    Tax Exempt and Government Entities Division                           5
                    Taxpayer Advocate Service1                                           12
                    Wage and Investment Division                                         13
                                         Total                                           65
                   Source: Our review of a sample of business resumption plans.

             Figure 2: Business Resumption Plans Reviewed (by Location)
       Business Operating Division               Bldg. No.        City                   State
          Chief Financial Officer                WV0171           Beckley                West Virginia
                                                 DC0022           Washington             District of Columbia
       Criminal Investigation Division           DC0022           Washington             District of Columbia
                                                 KY2020           Florence               Kentucky
                                                 CA7347           Fresno                 California
                                                 IL0236           Chicago                Illinois
                                                 PA0277           Philadelphia           Pennsylvania
    Large and Mid-Size Business Division         NY7013           New York               New York
                                                 TX0298           Houston                Texas
                                                 TX0302           Farmers Branch         Texas
                                                 IL0236           Chicago                Illinois
                                                 CA6218           Glendale               California
                                                 CA0154           San Francisco          California


1
  The Taxpayer Advocate Service is an independent organization within the IRS created by Congress to help
taxpayers resolve problems with the IRS and recommend changes to prevent the problems.
                                                                                                       Page 14
               Weaknesses in Business Resumption Plans Could Delay Recovery
                                      From a Disaster



                                              GA2004   Atlanta          Georgia
                                              DC9914   Washington       District of Columbia
                                              CA6116   San Jose         California
                                              IL2337   Downers Grove    Illinois
                                              CA0521   Laguna Niguel    California
          Office of Chief Counsel             DC0022   Washington       District of Columbia
                                              NY7282   New York         New York
                                              TX0302   Farmers Branch   Texas
                                              IL2177   Chicago          Illinois
   Small Business/Self-Employed Division      NY0376   Holtsville       New York
                                              PA0462   Philadelphia     Pennsylvania
                                              TN0005   Memphis          Tennessee
                                              KY3005   Covington        Kentucky
                                              UT1434   Ogden            Utah
                                              MD0278   New Carrollton   Maryland
                                              MI1951   Detroit          Michigan
                                              CA0281   Oakland          California
                                              NY7013   New York         New York
                                              CA0150   Los Angeles      California
                                              IL0236   Chicago          Illinois
                                              CO1656   Denver           Colorado
                                              PA6520   Philadelphia     Pennsylvania
        Taxpayer Advocate Service             GA2014   Atlanta          Georgia
                                              DC0022   Washington       District of Columbia
                                              PA0727   Philadelphia     Pennsylvania
                                              TX0058   Dallas           Texas
                                              TX2038   Austin           Texas
                                              WA0101   Seattle          Washington
                                              NY7243   Holtsville       New York
                                              TN0005   Memphis          Tennessee
                                              KY3005   Covington        Kentucky
                                              FL0067   Jacksonville     Florida
                                              GA0087   Atlanta          Georgia
                                              MO1937   Kansas City      Missouri
Tax Exempt and Government Entities Division   OH0189   Cincinnati       Ohio
                                              DC0560   Washington       District of Columbia
                                              NY6470   Brooklyn         New York
                                              MD0055   Baltimore        Maryland
                                              TX0284   Dallas           Texas
       Wage and Investment Division           MO1937   Kansas City      Missouri
                                              CA4664   Fresno           California
                                              TX2038   Austin           Texas
                                              GA1016   Atlanta          Georgia
                                              KY0085   Covington        Kentucky
                                              UT0036   Ogden            Utah
                                              MA0137   Andover          Massachusetts

                                                                                      Page 15
                 Weaknesses in Business Resumption Plans Could Delay Recovery
                                        From a Disaster



                                                GA0010         Atlanta            Georgia
                                                CA7456         Fresno             California
                                                TX1962         Austin             Texas
                                                KY2032         Covington          Kentucky
                                                UT1428         Ogden              Utah
                                                NY0376         Holtsville         New York
Source: Our review of a sample of business resumption plans.

To determine whether required planning details were documented in peripheral business
resumption plan documents, we visited the locations identified in Figure 3 and interviewed the
point of contact or business resumption team leader. We requested the key business resumption
information we had found lacking in the business resumption plans and conducted an indepth
review for the 15 business resumption plans, which we selected from the above list of 65 plans.
            Figure 3: Offices Visited to Review Business Resumption Plans

       Business Operating Division             Bldg. No.         City                  State
Large and Mid-Size Business Division           GA2004            Atlanta               Georgia
Taxpayer Advocate Service                      GA2014
Taxpayer Advocate Service                      GA0087
Wage and Investment Division                   GA1016
Wage and Investment Division                   GA0010

Taxpayer Advocate Service                      TX2038            Austin                Texas
Wage and Investment Division                   TX2038
Wage and Investment Division                   TX1962

Large and Mid-Size Business Division           TX0302            Dallas                Texas
Taxpayer Advocate Service                      TX0058

Wage and Investment Division                   CA4664            Fresno                California
Wage and Investment Division                   CA7456

Small Business/Self-Employed Division          TN0005            Memphis               Tennessee
Taxpayer Advocate Service                      TN0005

 Small Business/Self-Employed Division         MD0278            New Carrollton        Maryland
Source: Our review of a sample of business resumption plans.




                                                                                                 Page 16
   Weaknesses in Business Resumption Plans Could Delay Recovery
                          From a Disaster



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 17
Weaknesses in Business Resumption Plans Could Delay Recovery
                       From a Disaster




                                                      Page 18
Weaknesses in Business Resumption Plans Could Delay Recovery
                       From a Disaster




                                                      Page 19
